Case: i:18-cv-00420-SJD-SKB Doc #: 4 Filed: 08/10/18 Page: 150 of 191 PAGEID #: 182

IN THE COURT OF APPEALS
FIRST APPELLATE DISTRICT OF OHIO
HAMILTON COUNTY, OHIO

STATE OF OHIO,

APPEAL NO. C-150387
TRIAL NO. B-1300802-B

Plaintiff-Appellee,
vs.

JUDGMENT ENTRY.

LAVON ODEN,
Defends nt-Appellant

We consider this appeal on the accelerated calendar, and this judgment entry is
notan opinion ofthe court. See Rep.Op.R 3.1; App.R. ir.r(E); ist Dist LocR. n.,.i.
Defendant-appellant Lavon Oden appeals from the judgment of tire Hamilton
County' Court of Common Pleas convicting him, after a jury trial, of one count of murder,
iii violation of R.C. 2903.02(B), with a firearm specification, three counts of aggravated
robbery-, in violation of R.C. 2911.01(A)(1), each with a firearm specification, and one count
of having weapons under a disability, in violation of R.C. 2923.13(A)(3).

Oden was
acquitted on one count of aggravated murder. The court imposed consecutive terms, for
an aggregate sentence of 63 years to life in the department of corrections.
Ihe evidence at trial demonstrated that Oden shot and killed Da’Shawn Wheeler
after robbing Wheeler, Robert Johnson, and Danyl Craig, all occupants of a car that
Johnson had driven to Burton Avenue in Cincinnati to sell marijuana. At the time of tire
shooting, Oden was under a disability that prohibited him from having a firearm.
Johnson and Curtis Boston had set up the sale of Craig’s drugs to Oden with text
messages, although Johnson w-as not informed of Oden’s name. When Boston brought

AppENDIX-A
1-5

Case: l:18-cv-00420-SJD-SKB Doc #: 4 Filed: 08/10/18 Page: 151 of 191 PAGEID #: 183

OHIO FIRST DISTRICT COURT OF APPEALS

Oden to the car, Oden took the drugs from Craig and then pulled out a gun and demanded
and received money from die car’s occupants. When Oden demanded Johnson’s earrings,
Johnson sped away. Oden, who goes by “Whiteshit,” fired a shot through die open back
window. The bullet traversed die front passenger seat where Wheeler was sitting and
caused his eventual death about five minutes later at die nearby hospital where Johnson,
accompanied by Craig, had driven him.
Boston was charged as a codefendant but testified against Oden as part of a plea
agreement. He testified, consistent with a text message that he sent shortly after the
shooting, that “Whiteshit” had robbed die occupants of the car during the drug deal and
had fired the shot that killed Wheeler. Boston additionally testified tiiat Oden had used a
Ruger pistol, which was included among die 30 brands of firearms that could have fired
die bullet based on die ballistic testing.

Johnson testified, consistent with his pretrial

identification of Oden in a photographic lineup, that Oden was die robber and shooter.
Craig apparently refused to testify, but the contents of his cellular phone text records and
his pretrial identification of Oden were admitted into evidence without objection.
The cellular phone locator records for the phone numbers associated widi Oden
and Boston demonstrated that both phones had been exclusively pinging oft' of die same
Cincinnati Bell cellular tower and sector for die relevant time period before and after the
shooting. That tower and sector were closest to die shooting, which demonstrated that,
consistent with Boston's testimony, Boston and Oden had been together and in die vicinity
of that tower around the time of the shooting. Further, Oden’s text messages indicated
tiiat he was trying to sell a Ruger firearm less tiian a day after die shooting.
In his defense, Oden presented testimony from two experts, one generallychallenging die use of “cell tower forensics,'' and the other challenging the use of
eyewitness identification testimony'. Oden now appeals, raising six assignments of error.
We overrule the first assignment of error, claiming that the court permitted die
state to exclude a prospective juror because of his race, in violation of Batson v. Kentucky,

Case: l:18-cv-00420-SJD-SKB Doc #: 4 Filed: 08/10/18 Page: 153 of 191 PAG El D #: 185

OHIO FIRST DISTRICT COURT OF APPEALS

different conclusions as to whether each element of the offenses as charged in the
indictment had been proven beyond a reasonable doubt. See State v. Jenks, 61 Ohio
St.3d 259, 574 N.E.2d 492 (1991), paragraph two of die syllabus, following Jackson
v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.ad 560 (1979). And, second, we find
nothing in die record of dm proceedings below to suggest diat the jury-, in resolving the
conflicts in die evidence adduced on die charged offenses, lost its way or created such a
manifest miscarriage of justice as to warrant die reversal of die convictions. See State u.
Thompkins, 78 Ohio St-3d 380,387,678 N.E.2d 541 (1997). We note that the weight to be
given the evidence and the credibility of the witnesses were primarily for die trier of fact.
State v.DeHass, .1.0 Ohio St.2d 230, 227 N.E.2d 212 (1967), paragraph one of the syllabus.
Oden’s final assignmentof error involves his sentence. He first argues diat the trial
court eired by not merging die murder and aggravated-robbery counts. Oden was
convicted of felony murder for causing the death of Wheeler during die commission of an
aggravated robbery. He was also convicted of diree counts of aggravated robbery in
violation of R.C. 2911.01(A)(1), which provides that "[njo person, in attempting or
conunitting a theft offense * * •* shall *

*

[hjave a deadly weapon on or about the

offender’s person or under die offender's control and either display the weapon, brandish
it, indicate tiiat the offender possesses it, or use it.” Here, Odeu fired the fatal bullet into
the passenger seat of the car as the driver sped away from the robbety. This gratuitous
violence demonstrated an intent to seriously harm and intimidate separate from die
animus involved in the aggravated robberies. See State v. Dailey, 1st Dist. Hamilton No.
C-140129, 2O35-0hio-2997, 11 87; compare State v. Curtis, 1st Dist. Hamilton No. C150174 2oi6-0hio-i3i8 (finding 110 separate animus when victim shot to obtain his
property during an aggravated robbery). Thus, merger was unwarranted. See R.C.
2941.25(B); State v. Ruff, 143 Ohio St.3d 114,2015-Ohio-995,34 N.E.3d 892.
Oden also argues diat the sentence was erroneous because the trial court failed to
consider the purposes and principles of sentencing, did not make die findings required by '
4

No.

IN THE
SUPREME COURT OF THE UNITED STATES

LaVon Oden

— PETITIONER

(Your Name)
VS.
Neil Turner.War den, NCCI

— RESPONDENT(S)

PROOF OF SERVICE

j
ol \foo Qdi&rt
£f.j)±e.mbe.rJ2-b
20

, do swear or declare that on this date,
as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

fJCCX

P.O- floX I 8 IX

(A afi'od | PH 4 3302-

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20J^

(Signature)

